TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Trust Fund Recovery Penalty Actions
                       Were Not Always Timely or Adequate



                                           May 23, 2014

                              Reference Number: 2014-30-034




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                  HIGHLIGHTS


TRUST FUND RECOVERY PENALTY                          When TFRP assessments are not made timely,
ACTIONS WERE NOT ALWAYS TIMELY                       taxpayers’ financial ability to pay can decline,
OR ADEQUATE                                          thereby decreasing the IRS’s chances to collect
                                                     the trust fund taxes due. In addition, the
                                                     Government’s interest is not protected if
Highlights                                           potential TFRP assessments are overlooked or
                                                     missed.
Final Report issued on May 23, 2014                  In recent years, the IRS has introduced new
                                                     TFRP guidance to better control the TFRP
Highlights of Reference Number: 2014-30-034          process and has achieved some improvement in
to the Internal Revenue Service Commissioner         the average time it takes to complete
for the Small Business/Self-Employed Division.       investigations and assess the TFRP. However,
                                                     significant untimeliness still exists.
IMPACT ON TAXPAYERS
                                                     WHAT TIGTA RECOMMENDED
Employers are required to withhold amounts
from their employees’ salaries to cover individual   TIGTA recommended that the IRS emphasize to
Federal income, Social Security, and Medicare        group managers their responsibilities to monitor
taxes (trust fund taxes). When a business does       TFRP cases and ensure that revenue officers
not remit trust fund taxes withheld from its         take timely TFRP actions; enhance TFRP
employees, the IRS can collect the unpaid taxes      communication and training; ensure completion
from the individuals responsible by assessing        and adequacy of scheduled system
the Trust Fund Recovery Penalty (TFRP) when          improvements and take appropriate actions to
appropriate. Employees who have taxes                implement the changes; and revise TFRP
withheld from their wages expect the funds to be     guidance regarding the accuracy of the
properly remitted to the IRS. In addition,           collectibility determination support and
businesses that do not pay their taxes have an       controlling the completion of TFRP
unfair advantage over businesses that do pay         investigations when installment agreements or
their taxes in full and on time.                     currently not collectible closures are approved.
WHY TIGTA DID THE AUDIT                              In their response to the report, IRS officials
                                                     agreed with all of our recommendations and
As of June 30, 2012, employers owed the IRS          plan to take corrective actions.
approximately $14.1 billion in delinquent
employment taxes. This audit was initiated to
determine whether the Collection Field function
is taking adequate and timely TFRP actions on
trust fund cases.
WHAT TIGTA FOUND
TFRP actions were not always timely or
adequate. Specifically, TIGTA found untimely
TFRP actions, expired assessment statutes,
unsupported collectibility determinations, and
incomplete TFRP investigations associated with
installment agreement and currently not
collectible cases. TFRP actions were untimely
and/or inadequate in 99 of the 265 cases
reviewed in a statistically valid sample. For
59 of the 99 cases, the untimely actions
averaged more than 500 days to review and
process the TFRP assessment.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            May 23, 2014


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Trust Fund Recovery Penalty Actions
                             Were Not Always Timely or Adequate (Audit # 201230015)

 This report presents the results of our review to determine whether the Collection Field function
 is taking adequate and timely Trust Fund Recovery Penalty (TFRP) actions on trust fund cases.
 This audit was included in our Fiscal Year 2013 Annual Audit Plan and addresses the major
 management challenge of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix V. Although they
 agreed with all of our recommendations, Internal Revenue Service (IRS) management responded
 that our analysis would have been more accurate if we limited the scope of our review to exclude
 case actions that occurred prior to Fiscal Year 2012. Management made improvements based on
 Government Accountability Office recommendations, and the improvements were not fully
 implemented prior to Fiscal Year 2012.
 The audit report acknowledges that timeliness improvements have been made since the
 Government Accountability Office made its recommendations in July 2008. To properly and
 independently assess the impact of the IRS’s improvements, it was necessary to include
 investigations with case actions that were made both before and after all corrective actions were
 taken. Furthermore, the inclusion of case actions made since Fiscal Year 2010 identified other
 weaknesses and resulting corrective actions that otherwise may have been undetected.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Bryce Kisler,
 Acting Assistant Inspector General for Audit (Compliance and Enforcement Operations).
                                            Trust Fund Recovery Penalty Actions
                                            Were Not Always Timely or Adequate




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Trust Fund Recovery Penalty Actions Were Not
          Always Timely or Adequate ......................................................................... Page 4
                    Recommendation 1:........................................................ Page 10

                    Recommendations 2 and 3: .............................................. Page 11

                    Recommendation 4:........................................................ Page 12

          The Internal Revenue Service Has Made Some
          Improvements in Trust Fund Recovery Penalty Guidance ........................... Page 12

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 14
          Appendix II – Major Contributors to This Report ........................................ Page 17
          Appendix III – Report Distribution List ....................................................... Page 18
          Appendix IV – Glossary of Terms ................................................................ Page 19
          Appendix V – Management’s Response to the Draft Report ....................... Page 21
           Trust Fund Recovery Penalty Actions
           Were Not Always Timely or Adequate




              Abbreviations

ATFR    Automated Trust Fund Recovery
CPM     Control Point Monitoring
ICS     Integrated Collection System
IRM     Internal Revenue Manual
IRS     Internal Revenue Service
SB/SE   Small Business/Self-Employed
TFRP    Trust Fund Recovery Penalty
TIGTA   Treasury Inspector General for Tax Administration
                                     Trust Fund Recovery Penalty Actions
                                     Were Not Always Timely or Adequate




                                           Background

Employers are required to withhold amounts from their employees’ salaries to cover individual
Federal income, Social Security, and Medicare taxes. The employee share of taxes, which the
business has a fiduciary responsibility to hold “in trust” until paid to the Internal Revenue
Service (IRS), is referred to as a trust fund tax.1 Employers should also make matching
contributions for their own amounts for Social Security and Medicare taxes and deposit both
amounts with the IRS through the filing of employment tax returns.
Form 941, Employer’s Quarterly Federal Tax Return, is used to file and establish the tax liability
for the majority of trust fund taxes. Employers with tax liabilities of $2,500 or more per quarter
are required to make Federal tax deposits. Employees who have taxes withheld from their wages
expect the funds to be properly remitted to the IRS.
However, employers sometimes fail to make the
required deposits. Businesses that do not pay their            As of June 30, 2012, employers
taxes have an unfair advantage over businesses that do           owed the IRS approximately
pay their taxes in full and on time.                               $14.1 billion in delinquent
                                                                              employment taxes.
IRS procedures state that successful resolution of
delinquent trust fund taxpayer cases requires early
intervention by the Collection Field function to prevent taxpayers from incurring future
additional tax liabilities. The large number of taxpayers who repeatedly accumulate employment
tax delinquencies continues to be a major compliance problem for the IRS. As of June 30, 2012,
employers owed the IRS approximately $14.1 billion in delinquent employment taxes.2 This
total does not include the substantial amount of employment tax delinquencies that the IRS
determined were currently not collectible. As of the end of March 2013, the IRS’s total dollar
inventory of currently not collectible employment tax accounts was $24.9 billion.
When a business does not remit trust fund taxes, the IRS has the authority to assess all
responsible persons individually for the unpaid taxes via the Trust Fund Recovery Penalty
(TFRP).3 The IRS has the authority to assess the TFRP regardless of whether the business is
ongoing or has ceased operations. A responsible person is any person required to collect,
account for, and pay over taxes held in trust who willfully fails to perform any of these activities
or willfully attempts to evade or defeat any such tax or its payment. The TFRP is equal to the
total amount of trust fund taxes due, but is not the full amount of the employment tax


1
  See Appendix IV for a glossary of terms.
2
  This represents the total cumulative amount of delinquent employment taxes owed by employers as of that date.
3
  26 U.S.C. § 6672 (2006). Also, per 26 U.S.C. § 7202 (1954), the IRS can pursue criminal proceedings on anyone
who willfully fails to collect or truthfully account for and pay over such tax.
                                                                                                        Page 1
                                       Trust Fund Recovery Penalty Actions
                                       Were Not Always Timely or Adequate



delinquency because it is only the employee’s share of the trust fund taxes. Consequently,
employment tax delinquencies can be much larger than trust fund tax delinquencies.
To show willfulness, the Internal Revenue Manual (IRM) requires that the Government generally
must demonstrate that an individual with responsibility was aware, or should have been aware, of
the outstanding taxes and intentionally did not make the payments. A responsible person’s
failure to investigate or correct mismanagement after being notified that withholding taxes have
not been paid satisfies the TFRP “willfulness” element.
Responsibility is a matter of status, duty, and authority. A determination of responsibility is
dependent on the facts and circumstances of each case. A responsible person has: (1) the duty to
perform; (2) the power to direct the act of collecting trust fund taxes; (3) the accountability for,
and authority to pay, trust fund taxes; and (4) the authority to determine which creditors will or
will not be paid. A responsible person may be one or more of, but not limited to, the following:
          Officer, director, shareholder, or employee of a corporation.
          Limited/nominal partner or employee of a partnership.
          Employee of a sole proprietorship.
          Another corporation.
          Limited liability company member, manager, or employee.
The decision of whether to pursue the TFRP against a responsible person(s) should be made by
the revenue officer after the initial contact with the trust fund taxpayer—as soon as possible but
no later than 120 calendar days after assignment of the balance due account(s). That initial
120-day period is known as the determination date. The Integrated Collection System (ICS)
controls revenue officer case inventories and will provide warning notices when there are
60 days remaining on the determination date and when it has expired. A decision to pursue or
not pursue the TFRP must be made within this time period unless the trust fund liability is less
than the established threshold amount or the group manager authorizes a delay prior to expiration
of the 120-day determination time period. However, there is no prohibition against assessing the
TFRP if the amount is below the threshold. If the revenue officer’s decision is to pursue the
TFRP, the recommendation to assert the penalty should be submitted on a Form 4183,
Recommendation re: Trust Fund Recovery Penalty Assessment,4 to the group manager for
approval no later than 120 calendar days from the date the determination was made.
The Automated Trust Fund Recovery (ATFR) system is used by revenue officers to control
TFRP case inventories and to support the preparation and input of TFRP assessments and related
transactions. TFRP cases are created in the ATFR system when the ICS sends the case creation
date to the ATFR system. The ATFR system uses the ICS case creation date to monitor

4
    A recommendation to not assert the TFRP is also made on the Form 4183.
                                                                                             Page 2
                                Trust Fund Recovery Penalty Actions
                                Were Not Always Timely or Adequate



determination dates. The subsequent monitoring of TFRP action dates performed by the
ATFR system is based upon the case action dates that the revenue officers input in the
ATFR system. To assist group managers with monitoring and ensuring that TFRP actions by
their revenue officers are timely, the ATFR system provides status reports that group managers
are required to use at least monthly. The ATFR reports are also available to revenue officers to
assist them in working their TFRP case deadlines.
The TFRP is assessed only on responsible persons determined to have the ability to pay. Though
the TFRP may be assessed against several individuals, the total liability is collected only once
from the business, one or more responsible persons, or a combination of the two. Because
unpaid trust fund taxes include amounts for Social Security and Medicare, the Government may
have to transfer money from the General Fund to those programs for the unpaid trust fund taxes
that the IRS does not collect.
This review was performed at the Small Business/Self-Employed (SB/SE) Division Headquarters
Collection function office in New Carrollton, Maryland, and the SB/SE Division Campus
Compliance Services offices in El Segundo, California, and Laguna Niguel, California, during
the period October 2012 to September 2013. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                           Page 3
                                       Trust Fund Recovery Penalty Actions
                                       Were Not Always Timely or Adequate




                                       Results of Review

Trust Fund Recovery Penalty Actions Were Not Always Timely or
Adequate
We reviewed a statistically valid sample of 265 cases to determine the adequacy of TFRP
decisions and Collection function actions taken on trust fund cases. For our sampled cases,
146 TFRPs were assessed for 108 of the 265 cases, totaling $38.4 million.5 We found that TFRP
actions were untimely and/or inadequate in 99 of the 265 cases reviewed. For the 99 cases:6
        65 cases had untimely TFRP actions, ranging from 31 to 910 days late.
        20 cases had TFRPs that could not be assessed because the assessment statutes expired on
         the tax delinquent accounts in the Collection Queue prior to assignment to revenue
         officers.
        10 cases did not have adequate support for collectibility determinations when the TFRP
         was not assessed.
        9 cases with incomplete TFRP investigations were closed with an installment agreement
         or as currently not collectible before determining whether the TFRP should be assessed.
The Collection Field function can improve the timeliness of TFRP actions
Sixty-five of the 265 cases reviewed contained one or more untimely TFRP actions. For the
65 cases7 with untimely actions:
        9 cases took an average of 94 days for revenue officers to calculate the TFRP. Revenue
         officers are required to make the calculation within 45 days after initial case assignment.




5
  The TFRP was not required or possible in many of the Collection Field function cases in our sample; for example,
cases with unpaid trust fund taxes below the dollar threshold, business structures not applicable for the TFRP, or for
which the assessment statutes had expired. The TFRP assessments in our sample of open and closed business cases
spanned from June 2003 through March 2013. The wide range of years occurred because taxpayers sometimes
accrue additional liabilities even after responsible persons are individually assessed the TFRP.
6
  The number of cases noted in the bullets total to more than the 99 reported because some cases are represented in
more than one bullet.
7
  Many of the 65 cases had more than one of the untimely actions listed. Therefore, the cases reported in the bullets
sum to more than the 65 cited.
                                                                                                              Page 4
                                       Trust Fund Recovery Penalty Actions
                                       Were Not Always Timely or Adequate



       24 cases involving 25 investigations8 took an average of 209 days for revenue officers to
        decide to pursue the TFRP.9 Revenue officers are required to make this determination
        within 120 days after assignment of the balance due account(s).
       43 cases involving 47 TFRP investigations took revenue officers an average of 343 days
        to submit the Form 4183 to the group manager. Form 4183 is required to be submitted to
        the group manager within 120 days from the decision to pursue the TFRP.
       14 cases took the revenue officers an average of 104 days to deliver Letter 1153, 10-Day
        Notification Letter, 100% Penalty Proposed Against Filer for Corporation, to notify the
        responsible person(s) of the proposed TFRP. Delivery is required within 20 days of
        Form 4183 approval.
       27 cases involving 29 TFRP investigations were not timely submitted to the Control
        Point Monitoring (CPM) unit for review and processing of the TFRP file for assessment.
             o In 27 of the 29 investigations, the responsible person did not respond with their
               concurrence to the proposed TFRP assessment. These cases should have been
               submitted to the CPM unit within 90 days from the delivery date of the
               Letter 1153. Instead, it took an average of 185 days for the revenue officers to
               submit these cases.
             o ******1****** investigations, the revenue officers averaged 277 days to submit
               cases to the CPM unit. The responsible persons agreed to the proposed TFRP
               assessments (signed Form 2751, Proposed Assessment of Trust Fund Recovery
               Penalty, which waived the 60-day restriction). These cases should have been
               submitted to the CPM unit within 30 days from the delivery date of the
               Letter 1153.
Overall, the 65 cases with untimely TFRP actions included 59 cases that went through all
five action steps previously discussed, including submission to the CPM unit for processing.10 In
these 59 cases, it took revenue officers from 180 to 1,250 days (an average of 517 days) to
submit the cases to the CPM unit for review and processing of the TFRP assessment.

8
  Business cases with more than one delinquent tax period can have multiple TFRP investigations. Because revenue
officers are required to decide whether or not to pursue the TFRP within 120 days of assignment of a balance due
account (delinquent tax period), a single business case can have multiple TFRP investigations if additional tax
periods are assigned in a prior investigation subsequent to delivery of Letter 1153, 10-Day Notification Letter, 100%
Penalty Proposed Against Filer for Corporation.
9
  In eight of these 25 untimely determinations, revenue officers had not opened a TFRP investigation in the ATFR
system at the time of our review. As of September 2008, guidance required this to be done within 120 days of the
balance due modules being assigned. In seven of the 25 untimely determinations, the balance due modules were
assigned prior to September 2008 when the revenue officers were required to make determination within 180 days of
assignment.
10
   At the time of our review, six of the 65 untimely cases were not submitted to the CPM unit.
                                                                                                            Page 5
                                      Trust Fund Recovery Penalty Actions
                                      Were Not Always Timely or Adequate



Group managers are responsible for the quality of all work assigned to their group and must
provide oversight and direction to revenue officers. Group manager oversight responsibilities
include ensuring that revenue officer case actions are timely and in accordance with policies and
procedures. To assist group managers with monitoring and ensuring that TFRP actions by their
revenue officers are timely, the ATFR system provides reports that group managers are required
to use at least monthly. The following four reports can be accessed/generated at any time and
should be used by group managers to ensure that revenue officers take timely TFRP actions:
     1. The Pending Determination Report should be used to ensure that revenue officers make
        timely TFRP determinations.
     2. The Pending 4183 Report should be used to ensure that Forms 4183 are timely submitted.
     3. The Pending 1153 Report should be used to ensure that Letters 1153 are timely provided
        to responsible parties.
     4. The Pending 2749 to CPM Report should be used to ensure that the TFRP files are timely
        forwarded to the CPM unit.
Although site interviews revealed that group managers are familiar with these useful ATFR
system reports, they are not always used to monitor TFRP cases and ensure that revenue officers
take timely action. Group managers currently need to log in to the ATFR system and select each
of the specific TFRP action reports at least monthly in order to be compliant. IRS management
agreed that more consistent use of the monthly ATFR system reports would help address the
untimely cases we identified.11
The ICS provides a warning notice when there are 60 days remaining on the determination date
and when the deadline has expired. However, there is no similar ICS warning notice for the
Form 4183, which is submitted for cases for which revenue officers have determined to pursue
the TFRP. IRS management stated that the ICS provides the determination date reminder based
upon the case assignment date in the ICS, but that a reminder for a Form 4183 submission would
require extensive programming because the Form 4183 submission due date field resides only in
the ATFR system. However, more consistent monitoring of revenue officer TFRP actions by
group managers would potentially improve the collection of unpaid trust fund taxes and ensure
consistent treatment of taxpayers.
Further, the TFRP is only assessed on responsible persons determined to have the ability to pay.
When TFRP assessments are not made timely against responsible persons, their financial ability
to pay can decline, thereby decreasing the IRS’s chances to collect the trust fund taxes due.
Our sample case review also found another opportunity to improve group manager oversight of
TFRP actions and adherence to requirements. The 43 cases with late Form 4183 submissions

11
  The IRS also advised us that some TFRP action delays were the result of organizational decisions such as case
reassignments due to retirements, staffing concerns, or other inventory balancing issues.
                                                                                                           Page 6
                                     Trust Fund Recovery Penalty Actions
                                     Were Not Always Timely or Adequate



represents 66 percent of the 65 cases found to have untimely TFRP actions. None of the
43 cases included entries in the ICS histories by the group managers, as required by the IRM, to
grant revenue officers more time with the Form 4183 submissions. Moreover, the circumstances
that existed to warrant the additional time were not noted. Including this documentation would
help to demonstrate that group managers are involved in monitoring cases and addressing any
revenue officer performance issues when necessary.
The 65 untimely cases resulted in approximately $12.5 million in TFRPs being assessed more
than 30 days late. In all 65 cases, revenue officers had determined that the responsible individual
had the ability to pay prior to assessing the penalty. However, as of April 2013, the average trust
fund balance due in these business cases had increased by 11 percent, generally because of
penalties and accumulating interest. Based on our statistically valid sample, we project that
approximately $167 million12 in TFRPs may be assessed late annually.
Management actions:
Based on our findings, IRS management has requested an ATFR system programming change to
systemically create a new ATFR case to account for subsequent trust fund modules that often are
not considered after the Form 4183 has been approved or the ATFR case closes and the ICS
stays open with new modules accruing. This change will improve the processing for cases such
as those for which revenue officers had not timely opened a TFRP investigation in the ATFR
system (as noted in footnote 9).
The TFRP could not be pursued because assessment statutes expired before the
cases were assigned to revenue officers
The TFRP could not be pursued on delinquent accounts in 20 of the 265 cases reviewed, with an
estimated total trust fund balance of $1.1 million, because the assessment statutes for the payroll
tax returns expired before the tax modules were assigned to revenue officers. IRS management
stated that the assessment statutes expired while the delinquent accounts resided in the Collection
Queue, a holding area for cases awaiting assignment. The Collection case routing criteria and
prioritization does not consider imminent assessment statute expiration dates on cases in the
Collection Queue.
IRS management stated that newer payroll tax cases receive a higher priority over older ones.
Management also stated that diminishing Field Collection resources have affected its ability to
work all high-priority cases, which contributed to the assessment statutes expiring.
Because the current Collection inventory delivery prioritization often results in the TFRP
assessment statutes expiring before cases are assigned to revenue officers, the TFRP cannot be
pursued and the corresponding trust fund liabilities may go unpaid. IRS management advised us


12
  Based on our statistically valid sample, we are 90 percent confident that between $115,135,576 and $218,976,159
in TFRPs may be assessed late annually.
                                                                                                         Page 7
                                        Trust Fund Recovery Penalty Actions
                                        Were Not Always Timely or Adequate



that because of diminishing Field Collection resources, there will continue to be cases with
assessment statutes expiring in the Queue. Since the limited resources cannot be resolved with
the current budget constraints, we are not making a recommendation to address this issue at this
time.
Collectibility determinations were not adequately supported when the TFRP was
not assessed
Our audit tests included a review of the documentation used by revenue officers to support their
decisions to not assess the TFRP against responsible individuals. Of the 265 cases reviewed,
20 cases included 21 Forms 9327, Nonassertion Recommendation of Uncollectible Trust Fund
Recovery Penalty or of Uncollectible Personal Liability for Excise Tax. However, 10 of the
21 collectibility determinations were not adequately supported.
Determining collectibility involves the revenue officer securing and reviewing a taxpayer’s
Collection Information Statement (if the taxpayer agrees to provide one or the IRS obtains one
through a summons, when applicable) as well as researching and verifying the income and asset
information to assess the taxpayer’s ability to pay. Prior to approving the revenue officer’s
collectibility determination, the group manager is required to determine if the taxpayer’s latest
income tax return was reviewed, if a current Collection Information Statement was secured and
verified, and if a full compliance check was conducted. If this research is not properly
documented, managers cannot be assured that collectibility has been adequately assessed.
Although managers approved the Forms 9327 in these 10 cases, they did not ensure that they
were adequately researched or contained the appropriate supporting documentation.
IRS management advised us that better adherence to existing criteria could improve the accuracy
of the Forms 9327, which would better support the collectibility determination. However, the
current guidance does not specifically require revenue officers to provide the actual dates of the
investigation for the collectibility items in Section II of Form 9327, nor does it require managers
to adequately review and verify the research performed by the revenue officers.
For the 10 cases in which the collectibility determination was not properly documented, there
was a total unpaid trust fund balance of $782,231 in the related tax delinquent accounts.13 If the
collectibility determination is not adequate, a revenue officer may not assess the TFRP against a
responsible person who has the ability to pay, resulting in the potential loss of revenue and
inequitable treatment of taxpayers. Based on our statistically valid sample, we project that




13
  One of the 10 cases was already included in the timeliness finding, so the liability was not included in this section
to avoid double counting.
                                                                                                               Page 8
                                      Trust Fund Recovery Penalty Actions
                                      Were Not Always Timely or Adequate



documentation to support collectibility determinations in nonassertion cases could be missing
from 768 cases with trust fund liabilities of approximately $20 million14 per year.
TFRP investigations were incomplete when cases were closed with installment
agreements or as currently not collectible
We found that TFRP investigations were not completed as required for nine of the 265 cases
reviewed. Of the nine cases with incomplete TFRP investigations, five involved in-business
installment agreement closures and four were closed as currently not collectible.
When the TFRP is not assessed and an installment agreement will not fully pay all balances due
at least one year prior to the earliest assessment statute expiration date, the IRM requires revenue
officers to protect the future ability to assess the TFRP by: (1) obtaining waivers from the
responsible person(s) to extend the statute to the expected end-date of the agreement plus one
year and (2) assembling all documentation for completion of the penalty to the point of
assessment, including securing approval of Form 4183. In addition, management must ensure
that the TFRP and statute expiration dates are protected before granting any installment
agreements.
The IRM also requires revenue officers to secure approval on Form 4183 before trust fund tax
cases are closed as currently not collectible. The IRM allows group managers to approve
installment agreements and currently not collectible closures on cases with incomplete TFRP
investigations if Other Investigations15 are opened to protect the Government’s interest.
        Five installment agreement cases. There were no Other Investigations opened in the
         five installment agreement cases that did not obtain waivers or approved Forms 4183. In
         all five cases, the installment agreement request in the ICS contained the following
         statement: “The TFRP has been appropriately addressed, including securing waivers for
         all potentially responsible parties.” The IRS clarified that this statement is automated
         text included with each installment agreement and is not a history notation indicating that
         waivers were actually secured. Management action number 1 below was initiated to
         address this issue.
        Four currently not collectible closure cases. There were no Other Investigations
         opened in the four currently not collectible closure cases without Forms 4183.
The Government’s interest is not protected if TFRP investigations are not timely completed on
installment agreement or currently not collectible closures. When TFRP investigations are not
completed as required, the ability to timely assess the TFRP on the associated unpaid trust fund

14
   Based on our statistically valid sample, we are 90 percent confident that documentation to support collectibility
determinations in nonassertion cases could be missing from between 144 and 1,392 cases with trust fund liabilities
of between $4,871,265 and $35,120,100 per year.
15
   An “Other Investigation” is opened prior to case closure to provide an administrative tool from which the revenue
officer can continue to perform TFRP actions until the TFRP investigation is complete.
                                                                                                            Page 9
                                      Trust Fund Recovery Penalty Actions
                                      Were Not Always Timely or Adequate



tax periods is in jeopardy if the taxpayers go out of business, default on their installment
agreements, or report additional revenue or assets in the future. If this occurs and the IRS is not
able to assess the TFRP, the IRS may not be able to collect the delinquent trust fund taxes.
Revenue would be protected if the IRS opens an Other Investigation when it closes the TFRP
investigation when there is an in-business installment agreement or when the delinquent
employment tax account is closed as currently not collectible.
Management actions:
Based on our results, IRS management has requested:
     1. An ICS programming change to add a checklist box when initiating an installment
        agreement. The checklist box will allow the revenue officer to select the specific actions
        taken during the TFRP investigation. This change will remove the erroneous automated
        text and help ensure that ICS histories reflect only those actions actually performed. This
        programming is scheduled to take effect in January 2015.
     2. An ICS programming change to automatically create an Other Investigation when
        selections during the closing process indicate that the TFRP investigation has not been
        completed. This programming is scheduled to take effect in January 2015.
For the nine cases for which revenue officers and group managers did not follow existing
guidance to ensure that TFRP investigations were adequately considered and/or completed, there
was an estimated total unpaid trust fund balance of $275,663 in the related delinquent tax
accounts. Based on our statistically valid sample, we project that TFRP investigations may not
be adequately considered in 581 cases with approximately $16.5 million16 in unpaid trust fund
liabilities annually.
Recommendations
The Director, Field Collection, SB/SE Division (for Recommendations 1, 2, and 4), and the
Director, Collection Policy, SB/SE Division (for Recommendation 3), should:
Recommendation 1: Emphasize to group managers their responsibilities to:
     a. Use ATFR system reports at least monthly to promote timely TFRP investigations and
        actions by their revenue officers. Also, determine why group managers are not using the
        ATFR system reports and take appropriate actions to address the issues identified.
     b. Document the ICS case history with the circumstances that warrant additional time when
        revenue officers do not submit the Forms 4183 timely.


16
  Based on our statistically valid sample, we are 90 percent confident that TFRP investigations may not be
adequately considered for between 65 and 1,098 cases with unpaid trust fund liabilities of between $2,445,624 and
$30,589,088 annually.
                                                                                                         Page 10
                                Trust Fund Recovery Penalty Actions
                                Were Not Always Timely or Adequate



       Management’s Response: IRS management agreed with this recommendation.
       Specifically, management will: a) Revise the IRM to emphasize the requirement for
       managers to use ATFR reports at least monthly. Additionally, the IRS will review the
       use of these reports in operational reviews conducted by the Director, Field Collection, to
       ensure that ATFR system reports are used regularly. b) Revise the IRM to emphasize
       that managers must document the ICS case history with the circumstances warranting the
       additional time when a Form 4183 delay is approved.
Recommendation 2: Enhance TFRP communication and training. Specifically:
   a. Conduct Fiscal Year 2014 Manager TFRP training that includes emphasizing group
      manager responsibility for reviewing ATFR reports at least monthly to monitor
      timeliness of TFRP actions.
   b. Include a component to review and measure the timeliness of TFRP actions in Fiscal
      Year 2014 operational reviews conducted by the Director, Field Collection.
   c. Use systemic messages to remind revenue officers about existing system functionality to
      facilitate timely TFRP actions.
       Management’s Response: IRS management agreed with this recommendation.
       Specifically, management will: a) conduct training emphasizing group manager
       responsibility to review ATFR reports at least monthly to monitor timeliness of TFRP
       actions; b) review and measure the timeliness of TFRP actions as part of the operational
       reviews conducted by the Director, Field Collection; and c) initiate a process to use the
       ATFR Message of the Day feature to remind revenue officers about existing system
       functionalities to facilitate timely TFRP actions.
Recommendation 3: Work with the IRS Information Technology organization to ensure the
completion and adequacy of the ICS improvements that are scheduled to be implemented in
January 2015. Take appropriate actions to make sure the programming changes work as planned
and implement them appropriately. These changes will:
   a. Update the installment agreement request process to present a checklist box.
   b. Automatically create an Other Investigation when selections during the installment
      agreement and currently not collectible closing processes indicate the TFRP investigation
      has not been completed.
       Management’s Response: IRS management agreed with this recommendation.
       Specifically, management will periodically contact the IRS Information Technology
       organization to inquire about the status of the ICS improvements. Once the programming
       changes are made, the SB/SE Division will work with the Information Technology
       organization to ensure that the improvements work as intended.


                                                                                          Page 11
                                 Trust Fund Recovery Penalty Actions
                                 Were Not Always Timely or Adequate



Recommendation 4: Work with Collection Policy to revise the IRM guidance to:
   a. Require that group managers verify the accuracy of the collectibility determination
      support and research listed by the revenue officer in Section II of Form 9327.
   b. Reflect that an Other Investigation will be created on the ICS to control the completion of
      the TFRP investigation when installment agreements or currently not collectible closures
      are approved before the TFRP investigation is complete.
       Management’s Response: IRS management agreed with this recommendation.
       Specifically, management will revise the IRM to: 1) require managers to verify the
       accuracy of Form 9327 actions prior to approval and 2) reflect that an ICS Other
       Investigation must be created for completion of TFRP actions, if necessary, when
       approving installment agreements or currently not collectible closures.
The Internal Revenue Service Has Made Some Improvements in Trust
Fund Recovery Penalty Guidance
The IRS has introduced new TFRP guidance in an effort to better control the TFRP process and
improve the average time it takes to complete investigations and assess the TFRP. Prior to
September 2008, the IRM allowed revenue officers 180 days, or about six months, to make a
determination about whether or not to pursue a TFRP. However, the IRM was silent about how
long it should take revenue officers to subsequently submit the Form 4183 to the group manager
to proceed with the TFRP assessment.
In September 2008, the IRS implemented new guidelines requiring revenue officers to make the
determination of whether or not to pursue the TFRP within 120 days of case assignment and to
then submit the TFRP Form 4183 recommendation to the group manager within 120 days after
the determination.
Additionally, prior guidance did not provide revenue officers with a time period to submit the
completed TFRP package to the CPM unit for final review and processing. Nor was there
guidance on how long a revenue officer could take to deliver the Letter 1153 after the group
manager approved the TFRP recommendation. In August 2010, the IRM was updated to require
revenue officers to complete TFRP processing and forward the case to the CPM unit no later
than 30 days after the required response period in Letter 1153. In April 2011, the IRM was
updated to require revenue officers to deliver the Letter 1153 within 20 days after approval of the
TFRP recommendation.
While timeliness is still an issue with the TFRP process, the new guidance appears to have
contributed to a decrease in the average amount of time that revenue officers take to complete
TFRP investigations. In Fiscal Year 2001, the Treasury Inspector General for Tax



                                                                                           Page 12
                                    Trust Fund Recovery Penalty Actions
                                    Were Not Always Timely or Adequate



Administration (TIGTA) reported17 that it took the IRS 18 months to determine whether to
pursue the TFRP for cases assigned as of September 1998.
The Government Accountability Office reported in Fiscal Year 2008 that it took revenue officers
an average of about nine months to pursue the TFRP on cases assigned in Fiscal Year 2007 and
about another nine months to assess the penalty.18 Although the decision to pursue the TFRP
took about nine months less than reported in Fiscal Year 2001, total time from case assignment
to the TFRP assessment averaged approximately 18 months.
Our test results showed that it took an average of about two months for revenue officers to
determine whether to pursue the TFRP (significantly less than the four-month deadline) and
about another 10 months for the TFRP assessment to post to the account.
TFRP assessments that occurred in cases assigned after Fiscal Year 2010 showed further
improvement since the Government Accountability Office reported in Fiscal Year 2008 that it
took 18 months for the entire process. Analysis of the 53 sampled TFRP assessments that
occurred in cases assigned after Fiscal Year 2010 showed that it took about eight months on
average for the entire process—an average of about one month for the revenue officer to
determine whether to pursue the TFRP and an additional seven months for the TFRP assessment
to post.




17
   TIGTA, Ref. No. 2001-30-014, The Internal Revenue Service Does Not Effectively Use the Trust Fund Recovery
Penalty As a Collection Enforcement Tool (Nov. 2000).
18
   Government Accountability Office, GAO-08-617, Tax Compliance: Businesses Owe Billions in Federal Payroll
Taxes (July 2008).
                                                                                                     Page 13
                                        Trust Fund Recovery Penalty Actions
                                        Were Not Always Timely or Adequate



                                                                                       Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the Collection Field function is taking adequate
and timely TFRP1 actions on trust fund cases. To accomplish the objective, we:
I.         Determined if guidance and oversight are adequate to enable the Collection Field
           function to perform sufficient TFRP decisions and actions.
           A. Reviewed applicable TFRP guidance within the IRM, training materials, and other
              sources to assess the adequacy of the guidance in ensuring that TFRP actions and
              decisions are adequate and timely on trust fund cases.
           B. Performed on-site interviews and walkthroughs of the TFRP processes and systems
              used by the Collection Field function for cases involving trust fund taxpayers.
           C. Interviewed SB/SE Division Territory managers, group managers, revenue officers,
              advisory Territory managers, and advisory group managers to obtain insight on the
              TFRP process and obtain any job aids or relevant reports used for national statistics.
           D. Reviewed operational reviews or visitations conducted of the trust fund or TFRP
              program since Fiscal Year 2011 to determine the level of managerial review and
              employee accountability.
II.        Determined the adequacy of TFRP decisions and Collection function actions taken on
           trust fund cases and selected a statistically valid stratified sample of open trust fund
           taxpayer accounts for review.
           A. Identified a population of 3,296 open trust fund taxpayer accounts, with a total
              outstanding employment tax balance of $717 million, in TIGTA’s Data Center
              Warehouse ICS Tax Module file as of October 15, 2012, that: 1) had an aggregate
              Form 941 tax liability greater than $10,000 and at least one delinquent tax period
              assigned to a revenue officer in Calendar Year 2010 and 2) had at least one other
              delinquent tax period subsequently assigned in Calendar Year 2011 or later. On
              October 31, 2012, we received an ATFR system extract from the IRS that contained
              all taxpayer accounts that were assessed a TFRP after Calendar Year 2009. Matching
              that ATFR system extract to the open trust fund population of 3,296 resulted in
              breaking that total into two unique stratified open populations:



1
    See Appendix IV for a glossary of terms.
                                                                                               Page 14
                                Trust Fund Recovery Penalty Actions
                                Were Not Always Timely or Adequate



              1. Population of 2,111 open trust fund taxpayer accounts that were assessed a
                 TFRP between January 1, 2010, and October 31, 2012.
              2. Population of 1,185 open trust fund taxpayer accounts that were not assessed a
                 TFRP between January 1, 2010, and October 31, 2012.
       B. Based upon input from our contracted statistician, our statistically valid sampling
          methodology from the populations identified in Step II.A. resulted in a statistical
          sample of 173 open trust fund business cases (88 from the population of 2,111 and
          85 from the population of 1,185). The statistical sample was based on a confidence
          level of 90 percent, a precision level of ± 6 percent, and an expected error rate of
          12 percent. In order to improve the potential variability in projecting error dollars, we
          oversampled 19 cases among the few large dollar cases in the population.
       C. Reviewed the 173 open sample cases to assess the adequacy and timeliness of
          TFRP decisions and actions as prescribed in guidance such as IRM 5.7.4,
          Investigation and Recommendation of the TFRP.
       D. Determined if other actions were adequate, such as supporting collectibility
          determinations when the TFRP was not assessed due to hardship or collectibility
          concerns and protecting the Government’s interest when the TFRP was not assessed
          in conjunction with granting an installment agreement or closing a case currently not
          collectible. We also determined if unnecessary TFRP actions were performed in
          investigations for which the TFRP was not applicable or possible.
       E. Calculated projections across the population.
III.   Determined if the IRS is sufficiently considering the TFRP on trust fund cases closed as
       currently not collectible.
       A. Per TIGTA’s Data Center Warehouse ICS Tax Module file as of October 25, 2012,
          that we matched to the ATFR system extract noted in Step II.A., we identified a
          population of 17,940 trust fund taxpayer accounts, with a total outstanding
          employment tax balance of $1.3 billion, that: 1) had an aggregate Form 941 tax
          liability greater than $10,000; 2) were closed currently not collectible in Calendar
          Year 2011; and 3) did not have a TFRP assessed between January 1, 2010, and
          October 31, 2012.
       B. Based upon input from our contracted statistician, our statistically valid sampling
          methodology from the population identified in Step III.A. resulted in a statistical
          sample of 92 cases closed currently not collectible in Calendar Year 2011. The
          statistical sample was based on a confidence level of 90 percent, a precision level of
          ± 6 percent, and an expected error rate of 12 percent. We oversampled 11 cases
          among the few large dollar cases in the population in order to improve the potential
          variability in projecting error dollars.

                                                                                          Page 15
                                Trust Fund Recovery Penalty Actions
                                Were Not Always Timely or Adequate



       C. Used tests similar to the open sample review in Steps II.C. and D. to determine the
          adequacy and timeliness of TFRP decisions in the 92 sample cases closed currently
          not collectible.
IV.    Determined the status of the IRS’s corrective actions to address TFRP recommendations
       from prior TIGTA and Government Accountability Office reports.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: SB/SE Division Collection function’s
policies, procedures, and practices for TFRP actions to ensure that TFRP actions and decisions
are adequate and timely on trust fund cases. We evaluated these controls by reviewing statistical
samples of Collection Field function trust fund cases and interviewing Collection function
personnel.
Data validation methodology
During this review, we evaluated the reasonableness of the Form 941 data we extracted from the
ICS Tax Module files in TIGTA’s Data Center Warehouse. Specifically, we compared the
number of tax modules, trust fund businesses, and aggregate Form 941 tax liability in the
extracts we received to the IRS’s Collection report 5000-2, TDA Cumulative Report, to validate
or assess the reliability of the data we obtained. These tests determined that the data were
sufficiently reliable and could be used to meet the objective of this audit.




                                                                                         Page 16
                              Trust Fund Recovery Penalty Actions
                              Were Not Always Timely or Adequate



                                                                            Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Augusta R. Cook, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Audit Director
Glen J. Rhoades, Audit Manager
Beverly K. Tamanaha, Acting Audit Manager
Richard Viscusi, Acting Audit Manager
Lou Zullo, Lead Auditor
Mike Della Ripa, Senior Auditor
Brian G. Foltz, Auditor
Marcus Sloan, Auditor




                                                                                    Page 17
                             Trust Fund Recovery Penalty Actions
                             Were Not Always Timely or Adequate



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Field Collection, Small Business/Self-Employed Division SE:S:FC
Director, Filing and Payment Compliance, Wage and Investment Division SE:W:CP:FPC
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Chief Counsel CC
National Taxpayer Advocate TA
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                 Page 18
                                 Trust Fund Recovery Penalty Actions
                                 Were Not Always Timely or Adequate



                                                                                 Appendix IV

                                Glossary of Terms

Assessment Statute – For employment taxes, the statutory period of limitation is three years
from April 15 of the year following the year for which the return was due or three years after the
date the return was actually filed, whichever is later.
Automated Collection System – A telephone contact system through which telephone assistors
collect unpaid taxes and secure tax returns from delinquent taxpayers who have not complied
with previous notices.
Automated Trust Fund Recovery System – Used to help support the preparation and input of
TFRP assessments and related transactions.
Collection Area Office – A geographic organizational level used by IRS business units and
offices to help their specific types of taxpayers understand and comply with tax laws and issues.
Collection Field Function – The unit in the Area Offices consisting of revenue officers who
handle personal contacts with taxpayers to collect delinquent accounts or secure unfiled returns.
Collection Queue – A function of the Integrated Data Retrieval System, the Collection Queue is
a holding area where the IRS places cases awaiting assignment to Collection function personnel.
Control Point Monitoring – A function within the Collection Advisory unit that is responsible
for ensuring that TFRP case files received from revenue officers are complete and accurate, the
assessment statute expiration dates are protected, and the final disposition of the case has been
accurately recorded.
Currently Not Collectible – Accounts can be declared currently not collectible for numerous
reasons including: Bankruptcy, Defunct, Hardship, In-Business, Unable to Locate, Unable to
Contact, Decedent, etc.
Data Center Warehouse – Delivers data analysis capabilities to the TIGTA business units.
This availability to data and analysis tools enables TIGTA to conduct audits, investigations,
integrity projects, and administrative support activities in a timely and efficient manner.
Determination Date – The determination date is 120 calendar days after the trust fund balance
due account is assigned to a revenue officer.
Federal Tax Deposits – Federal tax deposits are advance payments made by business taxpayers
for trust fund taxes. Generally, these payments are made once, twice, four, or eight times a
month, depending upon the amount of the quarterly liability and frequency of the payroll.


                                                                                          Page 19
                                 Trust Fund Recovery Penalty Actions
                                 Were Not Always Timely or Adequate



Installment Agreement – Arrangements in which the taxpayers agree to pay their liabilities
over time.
Integrated Collection System – An information management system designed to improve
revenue collections by providing revenue officers access to the most current taxpayer
information, while in the field, using laptop computers for quicker case resolution and improved
customer service.
Integrated Data Retrieval System – The IRS computer system capable of retrieving or
updating stored information. It works in conjunction with a taxpayer’s account records.
Internal Revenue Manual – The operations manual for employees of the IRS.
Letter 1153 – Used by revenue officers to officially advise taxpayers of the proposed TFRP and
to provide them with their appeal rights. The letter requests the filer to return Part 1 of the
enclosed Form 2751, Proposed Assessment of 100% Penalty, if the assessment is agreed to;
otherwise, the IRS is to be contacted within 60 days.
Revenue Officer – Employees in the Collection Field function who attempt to contact taxpayers
and resolve collection matters that have not been resolved through notices sent by the IRS
campuses (formerly known as service centers) or the Automated Collection System.
Territory – Collection function geographic locations across the country, with direct supervision
by one of seven Area Office directors. A Territory is headed by a second-level manager in the
Collection function (Territory manager) responsible for supervision of all group managers within
the Territory.
Trust Fund Recovery Penalty – A Collection tool provided by Internal Revenue Code
Section 6672 against any person required to collect, account for, and pay over taxes held in trust
who willfully fails to perform any of these activities, or willfully attempts to evade or defeat any
such tax or its payment.
Trust Fund Tax – Trust fund tax is the employee portion of employment taxes (income, Social
Security, and Medicare taxes) withheld from an employee’s wages by an employer and held “in
trust” until paid to the IRS.




                                                                                            Page 20
            Trust Fund Recovery Penalty Actions
            Were Not Always Timely or Adequate



                                                  Appendix V

Management’s Response to the Draft Report




                                                       Page 21
Trust Fund Recovery Penalty Actions
Were Not Always Timely or Adequate




                                      Page 22
Trust Fund Recovery Penalty Actions
Were Not Always Timely or Adequate




                                      Page 23
Trust Fund Recovery Penalty Actions
Were Not Always Timely or Adequate




                                      Page 24
Trust Fund Recovery Penalty Actions
Were Not Always Timely or Adequate




                                      Page 25
Trust Fund Recovery Penalty Actions
Were Not Always Timely or Adequate




                                      Page 26
